No.

 

IN THE

Supreme Court of the Anited States

RICHARD SOWINSKI, PETITIONER

v.
CALIFORNIA AIR RESOURCES BOARD

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
6,090 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 22, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
